                                                       Department of the Interior
                                                      Office of Inspector General




                          AUDIT REPORT



                U.S. Fish and Wildlife Service Federal
               Assistance Grants Administered by the
               State of Nevada, Department of Wildlife,
              from July 1, 2002, Through June 30, 2004




Report No. R-GR-FWS-0011-2005                                                September 2006

This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                United States Department of the Interior
`
                           OFFICE OF INSPECTOR GENERAL
                               12030 Sunrise Valley Drive, Suite 230
                                      Reston, Virginia 20191

                                                                                    September 29, 2006


                                       AUDIT REPORT
Memorandum

To:         Director
            U.S. Fish and Wildlife Service

From:       Christina M. Bruner
            Director of External Audits

Subject:    Final Audit Report on the U.S. Fish and Wildlife Service Federal Assistance
            Grants Administered by the State of Nevada, Department of Wildlife, from July 1,
            2002, Through June 30, 2004 (No. R-GR-FWS-0011-2005)

         This audit report presents the results of our audit of costs incurred by the State of Nevada
(state), Department of Wildlife (Department) under Federal Assistance grants from the U.S. Fish
and Wildlife Service (FWS). The audit included total reported outlays of approximately
$21.3 million on FWS grants that were open during the state fiscal years (SFYs) ended June 30
of 2003 and 2004 (see appendix 1). The audit also evaluated Department compliance with
applicable laws, regulations, and FWS guidelines, including those related to the collection and
use of hunting and fishing license revenues and the reporting of program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. However, we questioned $1,991 in costs and identified weaknesses in
the reporting of program income, the asset management system, hunting and fishing license
certification process, and financial management system.

        FWS California and Nevada Operations Office provided a response to the draft of this
report on June 20, 2006. The FWS response included a copy of the Department’s response. We
summarized the FWS and Department responses after the recommendations, added our
comments on the responses, and summarized the status of the recommendations in appendix 3.

        Please respond in writing to the findings and recommendations included in this report by
December 29, 2006. Your response should include information on actions taken or planned,
target completion dates, and title of officials responsible for implementation.

      If you have any questions regarding this report, please contact Mr. Robert Leonard, Audit
Team Leader, at 916-978-5646, or me at 703-487-5345.

cc: Deputy CNO Manager, California and Nevada Operations Office, U.S. Fish and Wildlife
    Service


This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                                               Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts), 1 authorize FWS to provide Federal Assistance grants to states to enhance their sport
fish and wildlife restoration programs. The Acts allow FWS to reimburse the states up to 75
percent of the eligible costs incurred under the grants. They also specify that state hunting and
fishing license revenues cannot be used for any purpose other than the administration of the state
fish and game department.

Objectives
Our audit objectives were to determine whether the Department:

       •   claimed the costs incurred under Federal Assistance Program grants in accordance with
           the Acts and related regulations, FWS guidelines, and grant agreements;

       •   used state hunting and fishing license revenues solely for fish and wildlife program
           activities; and

       •   reported and used program income in accordance with federal regulations.

Scope
The audit work included claims that totaled approximately $21.3 million on 47 FWS grants that
were open during SFYs ended June 30 of 2003 and 2004 (see appendix 1). We performed our
audit at Department headquarters in Reno, Nevada. We visited two regional offices, five field
offices, five wildlife areas, and two fish hatcheries (see appendix 2). This audit was performed
to supplement, not replace, the audits required by the Single Audit Act of 1984, as amended, and
the Office of Management and Budget Circular A-133.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. We tested records and performed other auditing
procedures that we considered necessary under the circumstances. We examined the evidence
supporting selected expenditures charged to the grants by the Department, interviewed
Department employees to ensure that personnel costs charged to the grants were supportable, and
determined whether the Department used hunting and fishing license revenues solely for sport
fish and wildlife program purposes. To the extent possible, we relied on the work of the certified


1
    As amended, 16 U.S.C. §§ 669 and 777, respectively.

This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                                                          2
public accounting firm that performed the SFYs 2003 and 2004 Single Audits to avoid
duplication of audit effort. We did not evaluate the economy, efficiency or effectiveness of the
Department operations.

We selected a judgmental sample of transactions for substantive testing based on an initial
assessment of risk. We reviewed transactions and supporting documentation related to
purchases, other direct costs, drawdowns of reimbursements, in-kind contributions, program
income, equipment, and other property. We did not project the results of substantive tests to the
total population of recorded transactions. We also reviewed the financial management systems
for labor and license fees to identify the relevant internal controls over transactions recorded in
those systems and to test the operation and reliability of those controls.

Prior Audit Coverage
On February 26, 2003, we issued an advisory report titled, “Costs Claimed by the State of
Nevada, Department of Conservation and Natural Resources, Division of Wildlife Under Federal
Aid Grants from the U.S. Fish and Wildlife Service from July 1, 1996 through June 30, 1998.”
We followed up on all significant findings in the advisory report and determined that all findings
were fully resolved.

We reviewed Nevada’s Comprehensive Annual Financial Reports and Single Audits for SFYs
2003 and 2004. The Sport Fish Restoration and Wildlife Restoration Programs were not selected
for compliance testing in the SFY2003 Single Audit but were selected for compliance testing in
the SFY2004 Single Audit. The SFY2004 Single Audit did not contain any findings that would
directly impact Department FWS Federal Assistance grants.

We also reviewed two audit reports issued by the Nevada Department of Administration,
Division of Internal Audits. The August 6, 2002 report addressed Department compliance with
specific laws, regulations, guidelines, and contract stipulations. The October 3, 2002 report
addressed the efficiency and effectiveness of Department management of its law enforcement
and administrative services staffs. Neither of the audit reports included any findings that directly
impacted FWS Federal Assistance grants.




This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                                                    3
                                    RESULTS OF AUDIT

Audit Summary
We found that the Department complied, in general, with selected grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance and that state hunting and fishing
license revenues were used solely for the Department’s fish and wildlife program activities.

We also identified the issues listed below, including $1,991 in questioned costs. We discuss
these findings in more detail and recommend corrective actions in the findings and
recommendations section.

        •   Questioned Costs: Unnecessary and unallocable costs. We questioned $1,991 in
            moving and entertainment costs.

        •   Unauthorized use of cost sharing/matching. Under one of the grant programs, the
            Department did not request or receive authorization from FWS to use the cost
            sharing/matching alternative for reporting program income of $71,260.

        •   Inadequate equipment controls. The Department’s controls over equipment were
            not adequate to ensure compliance with applicable acquisition and control
            requirements.

        •   Inadequate hunting and fishing license certifications. The Department eliminated
            potential duplicate license holders from its certifications based on an outdated
            statistical survey. In addition, the Department did not retain the detail records to
            support the totals shown on the hunting and fishing license certifications.

        •   Inadequate protection of local area network. [FOIA Exemption 2-high]

Findings and Recommendations

We address each finding in detail below.

A.      Questioned Costs: Unnecessary and Unallocable Costs
        The Department charged costs of $1,991 that were not allocable to the FWS Federal
        Assistance grants or were not necessary to conduct the grant program.

        The Department charged to Fisheries Management Grant F-20-38 moving costs of $2,947
        to relocate the Fisheries Bureau Chief from Spring Creek, Nevada, to Reno, Nevada. We
        believe that the moving costs should have been allocated based on the employee’s actual
        duties. The employee’s work performance standards indicated about 65 percent of his
        duties are related to FWS Federal Assistance grants and the remaining 35 percent are
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                                                    4
        related to other duties. We believe moving costs of $1,031 ($2,947 x .35) should be
        considered questioned costs.

        In addition, the Department charged meal costs of $960 for a dinner and reception for
        hunter and angler education volunteers and their guests, as follows: $720 to Hunter
        Education Grant W-51-HS-28 and $240 to Aquatic Education Grant F-30-AE-14. The
        meals were not included in the grant budgets and appeared to benefit neither grant
        directly.

        Title 50 C.F.R. §§ 80.15 and 80.16 state that (1) allowable costs are limited to those that
        are necessary and reasonable for accomplishment of approved project purposes and are in
        accordance with the cost principles of OMB Circular A-87 and (2) payments shall be
        made for the federal share of allowable costs incurred by the state in accomplishing
        approved projects. In addition, OMB Circular A-87, Attachment A, item C.3.a, states “a
        cost is allocable to a particular cost objective if the goods or services involved are
        chargeable or assignable to such a cost objective in accordance with the relative benefits
        received.” Further, OMB Circular A-87, attachment B, item 14, states that entertainment
        costs, such as social activities, are unallowable.

        Charges to the three FWS Federal Assistance grants discussed above were overstated by
        $1,991.

        Recommendation

        We recommend that FWS resolve the questioned costs of $1,991 for charges to the three
        grants that did not appear to be properly allocable or necessary.

        Department Response

        The Department stated that according to time sheets for the Fisheries Bureau Chief, most
        of his time is spent on the Federal Assistance projects. Therefore, they believe the costs
        of his move should be reimbursed. It also stated that the $720 of meal costs charged to
        the Hunter Education Grant was eligible for FWS reimbursement because training and
        awards dinners were in the grant objectives. It did agree that the $240 of meal costs
        charged to the Aquatic Education Grant was not eligible for reimbursement.

        FWS Response

        FWS officials concurred with the findings and recommendation to resolve the questioned
        moving costs. They also concurred with the questioned meal costs charged to the
        Aquatic Education Grant but believed that the meal costs charged to the Hunter
        Education Grant were grant-related.




This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                                                    5
        OIG Comments

        Although FWS concurred with part with our finding, we consider the recommendation
        unresolved because they did not agree with the entire finding. Additional information is
        needed in the corrective action plan concerning the specific actions taken or planned to
        resolve the findings and implement the recommendation.

B.      Unauthorized use of cost sharing/matching
        The Department used but did not request or receive authorization from FWS to use the
        cost sharing/matching alternative for reporting program income received under Nevada
        Wildlife Management Area System Grant FW-4-D-10. The cost sharing/matching
        alternative does not require reduction of total allowable costs to account for program
        income. Under the deductive method, which is the method ordinarily used to account for
        program income, total allowable costs are reduced by the amount of program income.

        The SFY2004 grant agreement, dated August 22, 2003, authorized federal reimbursement
        of up to $836,266 and indicated that the Department would use the deductive alternative
        for reporting program income. The Department correctly reported program income under
        the deductive alternative for the SFY2003 Grant FW-4-D-9. However, the Department
        reported program income of $71,260 using the cost sharing or matching alternative in its
        Financial Status Report (FSR) for the SFY2004 Grant FW-4-D-10 without approval.

        Under Title 43 C.F.R. § 12.65(g), program income ordinarily shall be deducted from total
        allowable costs to determine the net allowable costs. When authorized, program income
        may be added to the funds committed to the grant agreement by the federal agency and
        the grantee or used to meet the grant agreement’s cost sharing or matching requirement.
        We believe the Department did not request approval to use the cost sharing/matching
        alternative because it was unaware of the federal regulation requiring such approval.

        The Department did not comply with the program income reporting requirements. At our
        exit conference the Wildlife Diversity Chief told us that the deductive method should
        have been used to report the program income for the SFY2004 grant and that a revised
        FSR will be submitted for the Grant.

        Recommendations

        We recommend that FWS:

        1. ensure that the Department submits a revised FSR for Grant FW-4-D-10 that includes
           program income of $71,260 reported under the deductive method; and

        2. require the Department to request and receive written authorization to use the cost
           sharing or matching alternatives for reporting program income before submitting
           Financial Status Reports.


This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                                                    6
        Department Response

        The Department used the deductive alternative for reporting program income and plans to
        submit an amended FSR.

        FWS Response

        FWS concurred with the findings and recommendations.

        OIG Comments

        Based on the FWS response, we consider the recommendations resolved, but not
        implemented. Additional information is needed in the corrective action plan concerning
        the specific actions taken or planned to resolve the finding and implement the
        recommendations.

C.      Inadequate equipment controls

        The Department’s asset management system needs improvement to better ensure
        compliance with federal regulations and its own property inventory control procedures.
        As we discuss below, the Department’s personal property inventory did not identify
        funding sources and some of the property items shown on the inventory could not be
        located.

               Personal Property Inventory. The Department’s Administrative Services
        Bureau maintains the personal property inventory, which includes property costing over
        $1,000 and all weapons and computers, regardless of cost. It contains over 2,800 items
        valued at about $13.2 million. The inventory does not show whether the property items
        were purchased with federal assistance grant funds, other federal funds, license fee
        revenues, or other funds.

        Title 50 C.F.R. § 80.18(c) and the FWS Manual 522 FW 1.16 require that the state
        account for and control all assets acquired with federal assistance funds. This
        requirement assures that the assets are used throughout their life to fulfill the purpose for
        which they were acquired.

        The Administrative Services Officer told us that the funding source was identified in the
        previous property inventory database, but that it was eliminated from the database in
        2000. This elimination occurred when the state implemented the Integrated Financial
        System (IFS). The Administrative Services Bureau began to keep subsidiary inventory
        records in 2003 to identify those property items that were purchased with federal
        assistance grant funds.

        We believe the condition exists because the Department’s inventory control procedures
        do not address the need to identify the sources of funding used to purchase property. As
        a result, the Department cannot assure (1) the property items purchased with federal

This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                                                    7
         assistance grant funds and license fee revenues are being utilized for the purposes for
         which they were acquired or (2) the proceeds from the sale of property purchased with
         federal assistance grant funds and license fee revenues are properly credited.

                Review of Personal Property Items. Using the Department’s personal property
         inventory database 2 , we judgmentally selected for review 71 property items (computers,
         vehicles, boats, and equipment) valued at about $1.9 million.

         Title 50 C.F.R. § 80.19 requires the states to maintain current and complete property
         records in accordance with the requirements contained in the Service Manual and OMB
         Circular A-102. The Department’s property inventory control procedures require that
          (1) assets be assigned to a specific location and that the responsibility for them be
         assigned to a specific person; (2) property tags be affixed to all newly acquired assets; (3)
         physical inventories of all fixed assets be performed annually; and (4) individual asset
         records or a group of assets at a specific location be changed or corrected using property
         disposition reports.

         With the assistance of the staff at each of the locations visited, we inspected property
         items to see if the Department had adequate controls in place to account for and
         safeguard personal property. Specifically, we sought to verify whether data on the
         inventory lists were accurate and if property items existed, were properly tagged, or were
         disposed of properly. Based on our inspections, we identified the following conditions.

             •    Five property items, valued at about $50,000, could not be located. The missing
                  items included a Polaris ATV and a computer (Las Vegas Region), a 22-foot boat
                  and radar display unit (Overton Wildlife Management Area), and an open
                  landscape trailer (Henderson Field Office). Overton and Henderson officials told
                  us that the inventory lists were incorrect, and the former told us that he had never
                  seen the boat or radar unit and that the person shown as responsible for the two
                  items had never worked at Overton.

             •    Seven property items, valued at about $65,000, had been loaned and/or transferred
                  to employees at other locations without formal documentation of the transfers.
                  The loaned and transferred property items included a house trailer, a patrol boat,
                  and a backpack outfit. The responsible individuals neither used sign in/out
                  registers or hand receipts to establish accountability for these items, nor did they
                  submit property disposition reports reflecting the transfer of the property items to
                  employees at the other locations.

             •    Eight property items, valued at about $93,000, did not have state property tags
                  affixed.


2
 The database includes the description of the fixed asset, location, serial number, state fixed asset number, asset
value, purchase order number, and acquisition date. The Department’s administrative officer and accounting
assistant were able to identify the source of funding for some of the items selected in our sample, because the
purchase orders had been retained.
This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                                                           8
        We believe these conditions existed because the Department’s inventory control
        procedures were not always followed. As discussed above, some of the employees at the
        sites visited indicated that the inventory listings were in error. Conversely, the
        accounting assistant stated that if the inventory listings were in error, it was because the
        employees in the field were not updating them. Complete and accurate inventory records
        are essential for managing property effectively. The failure to keep adequate inventory
        records hinders the Department’s ability to safeguard and account for its property.

        Recommendations

        We recommend that FWS require the Department to:

        1. review the current personal property inventory database and identify those property
           items that were purchased with Federal Assistance grant funds and license fee
           revenues;

        2. request the Nevada Department of Information Technology to modify the IFS so that
           future inventory lists will readily identify those property items purchased with federal
           assistance grant funds and license fee revenues;

        3. locate the property items not at their identified locations and make the necessary
           corrections; and

        4. maintain formal property records, such as sign in/out registers or hand receipts, that
           identify property items assigned to a specific employee and location that have been
           loaned to or transferred to employees at other locations.

        Department Response

        The Department stated that there was a period during the transition to the IFS when the
        funding source was not identified. It also stated that changes were made in 2003 to track
        funding sources and that they continue to be tracked via spreadsheets and a comment
        section in the IFS.

        It further stated that all of the missing inventory had been located. Of the five items that
        could not be located, four were found at the listed areas; the last item was in a different
        location and a Property Disposition Report has since been completed. Of the three
        property items listed under loaned and/or transferred, two items had been physically
        moved from the assigned location to specific project sites, but remain assigned to the
        original location and will be returned at the end of the assignment; the third item was
        found at a different location and a Property Disposition Report will be processed.

        FWS Response

        FWS concurred with the findings and recommendations.


This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                                                    9
        OIG Comments

        Based on the FWS response, we consider the recommendations resolved, but not
        implemented. Additional information is needed in the corrective action plan concerning
        the specific actions taken or planned to resolve the finding and implement the
        recommendations.

D.      Inadequate hunting and fishing license certifications

        The Department used University of Nevada, Reno, adjustment factors from a 1970’s
        statistical survey to eliminate potential duplicate license holders when it prepared its
        annual hunting and fishing license certifications for license years 2002 and 2003. As a
        result, the survey may not reflect current conditions. Further, we could not verify the
        accuracy of the total number of hunting and fishing licenses shown in the 2002 and 2003
        license certifications.

        The Department’s 2002 and 2003 license certifications were prepared by the Federal
        Assistance Coordinator. He obtained the total number of licenses from the sold inventory
        summary reports, which were based primarily on the sales data obtained from the
        monthly license inventory and sales accounting (LISA) reports. He then applied the
        various adjustment factors from the 1970’s study to eliminate duplicate license holders.
        The Department did not retain the detailed hunting and fishing license sales records that
        supported the totals shown in the monthly LISA reports.

        Title 50 C.F.R. §§ 80.10(a) and (b), respectively, state that information concerning the
        number of persons holding paid hunting and fishing licenses in the state in the preceding
        year shall be furnished to FWS, and that the information shall be certified as accurate by
        the state fish and wildlife agency director. Also, Title 50 C.F.R. § 80.10(c)(5) states that
        an individual holding more than one license to hunt or fish shall not be counted more than
        once as a hunting or fishing license holder. In addition, the FWS Manual 522 FW 2.7(1),
        Grantee Administration, recommends that surveys to determine and adjust for duplicate
        license holders be conducted every 5 years or sooner, if there is a change in the license
        structure.

        We believe the conditions existed because (1) the Department has not committed
        resources to conduct a current study on duplicate license holders and (2) the Department
        was not aware of the need to retain the detailed hunting and fishing license sales records
        necessary to substantiate the totals shown in the license certifications. As a result, the
        2002 and 2003 license certifications were not supported by current adjustment factors for
        duplicate license holders, and the number of paid licenses reported by the Department
        could be understated or overstated.

        At our exit conference, the Federal Assistance Coordinator told us that they are in the
        process of converting to a computerized license sales system that will report license sales
        and identify duplicate license holders. He stated that the conversion is expected to be
        fully implemented for the 2007 license certifications, which will be filed in 2008. He

This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                                                    10
        agreed that the detailed hunting and fishing license sales records needed to be maintained
        for a longer period.

        Recommendations

        We recommend that FWS require the Department to:

        1. conduct a new survey for hunting and fishing license sales to determine whether there
           is a need to change the current adjustment factors being used to eliminate duplicate
           license holders, and

        2. retain the detailed hunting and fishing license sales records necessary to substantiate
           the totals shown in the license certifications.

        Department Response

        The Department stated that it is currently implementing a new data base system called
        Nevada Wildlife Data System (NWDS) which will meet the requirements for reporting
        and retention. It further stated that the NWDS will be fully implemented by the end of
        2007 and will automatically eliminate duplicate license holders.

        It also stated that it did not keep a hardcopy of the backup for the certification, but the
        information is accessible for 2-3 years on the mainframe and older information is stored
        on microfiche. It further stated that the new NWDS will have the capability of producing
        the necessary license sales records and reports.

        FWS Response

        FWS stated that it concurred with the findings and recommendations.

        OIG Comments

        Based on the FWS response, we consider the recommendations resolved but not
        implemented. Additional information is needed in the corrective action plan concerning
        the specific actions taken or planned to resolve the finding and to implement the
        recommendations.

E.      Inadequate protection of local area network
        [ FOIA Exemption 2-high]

        Recommendation

        [ FOIA Exemption 2-high]




This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                                                    11
        Department Response

        [FOIA Exemption 2-high]

        FWS Response

        FWS concurred with the finding and recommendation.

        OIG Comments

        Based on the FWS response, we consider the recommendations resolved, but not
        implemented. Additional information is needed in the corrective action plan concerning
        the specific actions taken or planned to resolve the finding and implement the
        recommendations.




This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                                                    12
                                                                                           Appendix 1
                                                                                              Page 1 of 2
                            NEVADA DEPARTMENT OF WILDLIFE
                           FINANCIAL SUMMARY OF REVIEW COVERAGE
                              JULY 1, 2002 THROUGH JUNE 30, 2004

             Grant             Grant           Reported           Questioned          Federal
            Number            Amount           Outlays              Costs              Share

         F-20-38             $1,793,376       $1,615,681              $1,031            $773
         F-20-39              1,657,000        1,577,284
         F-27-B-43              240,000          201,951
         F-27-B-45              278,000          154,183
         F-27-B-47              370,000          370,000
         F-27-B-48               93,000           93,000
         F-27-B-49              299,342           38,052
         F-27-B-50               30,000           30,000
         F-27-B-51               40,000           32,012
         F-27-B-52              180,000                0
         F-27-B-53              500,000          500,000
         F-27-B-54               24,000           24,000
         F-27-B-55               60,000           20,799
         F-27-B-56                3,000            2,629
         F-27-B-57               80,000                0
         F-27-B-58               15,000                0
         F-27-B-59               10,000                0
         F-27-B-60               85,000           94,593
         F-27-B-61               30,000                0
         F-30-AE-14             335,460          348,339                 240              180
         F-30-AE-15             309,556          329,935
         F-32-D-12            2,127,184        1,906,972
         F-32-D-13            1,779,164        1,454,771
         F-35-D-4                30,000            3,589
         F-38-D-1               933,333        1,050,419
         F-38-D-2            20,590,667          940,902
         FW-1-CP-4               91,062           81,110
         FW-3-T-22              964,247          874,744
         FW-3-T-23            1,705,983                0
         FW-4-D-9             1,392,320        1,444,903
         FW-4-D-10            1,112,421        1,214,950
         FW-20-L-4              160,530          161,871
         FW-20-L-5              128,000          135,504
         FW-21-E-3              222,000           85,733
         W-48-R-34            1,650,792        1,544,252
         W-48-R-35            1,450,000        1,307,746
         W-51-HS-28             419,112          503,775                 720              540

This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                                                    13
                                                                                           Appendix 1
                                                                                              Page 2 of 2

                            NEVADA DEPARTMENT OF WILDLIFE
                           FINANCIAL SUMMARY OF REVIEW COVERAGE
                               JULY 1, 2002 THROUGH JUNE 30, 2004

                              Grant             Reported           Questioned            Federal
     Grant Number            Amount             Outlays              Costs                Share

     W-51-HS-29                106,667                  0
     W-51-HSD-31               396,515            323,645
     W-51-HSD-32               383,006            364,579
     W-51-HSD-33               100,000                  0
     W-58-D-14                 645,361            677,633
     W-58-D-15               1,371,188            768,921
     W-61-D-6                  148,308            138,827
     W-61-D-7                  119,200            119,673
     W-64-R-3                  475,015            475,295
     W-64-R-4                  400,000            279,531
     TOTAL                 $45,334,809        $21,291,800               $1,991            $1,493




This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                                                    14
                                                                                           Appendix 2

                            NEVADA DEPARTMENT OF WILDLIFE
                                             SITES VISITED

                                            Headquarters
                                  Department of Wildlife, Reno, NV
                                 Administrative Services, Reno, NV
                                     Air Operations, Minden, NV


                                     Regional and Field Offices
                                   Southern Region, Las Vegas, NV
                                       Boulder City Field Office
                                        Henderson Field Office


                                     Western Region, Fallon, NV
                                       Carson City Field Office
                                           Reno Field Office
                                       Winnemucca Field Office


                                    Wildlife Management Areas
                                                 Fernley
                                               Humboldt
                                              Key-Pittman
                                             Mason Valley
                                                Overton


                                            Fish Hatcheries
                                               Lake Mead
                                             Mason Valley


                                     Motor Boat Access Projects
                                          Big Bend State Park
                                               Topaz Lake
                                             Washoe Lake




This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                                                    15
                                                                                           Appendix 3

                       NEVADA DEPARTMENT OF WILDLIFE
                STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS


       Recommendations                          Status                        Action Required

 A.1                                FWS and NDOW                     Provide a corrective action plan
                                    Management do not concur;        that identifies the actions taken or
                                    the recommendations are          planned to resolve the finding
                                    not resolved and not             and implement the
                                    implemented. Additional          recommendations. The plan
                                    Information Needed.              should also include the target
                                                                     date and the official responsible
                                                                     for implementation of each
 B.1, B.2, C.1, C.2, C.3, C.4,      FWS and NDOW                     recommendation. Any
 D.1, D.2, and E.1                  Management Concurs; the          recommendations that are not
                                    recommendations are              implemented at the end of 90
                                    resolved, but not                days (after December 29, 2006)
                                    implemented. Additional          will be referred to the Assistant
                                    Information                      Secretary for Policy,
                                    Needed.                          Management and Budget for
                                                                     resolution and/or tracking of
                                                                     implementation.




This report contains information that is exempt from public disclosure pursuant to exemption 2 of the
Freedom of Information Act (FOIA), 5 U.S.C. § 552 (b)(2).
                                                    16
